1.

*-'*

CERTIFICATION OF SERVICE

Amy R. Gurvey, a US Patentee and sole named inventor of US
ticketing patents 7603321; D647910S, declares under penalty of perjury
that on August 20, 2021, she served a true and accurate copy of the
within Petition Seeking a Writ of Certiorari under the All-Writs Act, 28
USC ยง1651(a), by mailing a copy of said papers, postage prepaid, to the
following addresses:
Clerk of the Supreme Court of the United States
One First Street NE
Washington, DC 20543
Clerk US Court of Appeals for the Federal Circuit
717 Madison Place, NW
Washington DC 20549
Clerk US Court of Appeals for the Second Circuit
40 Foley Square
New York, NY 10007
Furman, Kornfeld & Brennan
61 Broadway, 26th FL
New York, NY 10006
Hinshaw & Culbertson, LLP
800 Third Avenue 13th FL
New York, NY 10022

AMY^R. CpRVEY

41

